           Smithsonian Institution
           Office of the Inspector General


           In Brief                               Friends of the National Zoo Revenue Operations
                                                  Report Number A-06-01, August 28, 2007




Why We Did This Audit                 What We Found

Friends of the National Zoo           FONZ has made significant contributions to the Zoo. It promotes quality
(FONZ) is a nonprofit                 educational programs for the public, generates profits from its concessions and
organization governed by a            parking operations, and marshals hundreds of volunteers who help support many
member-elected Board of               important functions for the Zoo. Nonetheless, we identified numerous areas
Directors. FONZ has an                where FONZ can improve its revenue-generating operations by:
agreement with the Smithsonian
to operate the concessions at the            Strengthening its retail inventory management practices through
National Zoological Park (Zoo),               ensuring optimum stock levels and reducing the cost of goods sold.
the net proceeds from which are to
be used exclusively for the benefit          Increasing the use of carts, tents, tables, and other temporary structures
of the Zoo.                                   to supplement the lack of permanent square footage available for retail
                                              and to complement food and beverage offerings.
The Zoo’s Deputy Director
requested that we evaluate FONZ’s            Streamlining its overall retail staffing structure.
revenue operations. Our
objectives were to determine                 Establishing aggressive financial targets for revenue and net contribution
whether FONZ is managing the                  growth and exploring all options for achieving these targets.
Zoo’s revenue operations in the
most efficient and profitable                Enhancing the quality of the visitor experience through improving its
manner.                                       customer service training and continuing efforts to better assess customer
                                              satisfaction.

What We Recommended                          Reexamining the free parking policies for Zoo and FONZ employees as
                                              well as FONZ members.
We made 16 recommendations to
strengthen FONZ’s revenue                    Developing, documenting, and monitoring policies and procedures in
operations by improving financial             accordance with the current needs of the organization.
performance, operational
effectiveness, and the visitor               Ensuring the master plan that is under development reflects the needed
experience.                                   expansion of retail, food and beverage, and parking facilities, as well as
                                              the addition of other entertainment amenities.
Except for investment policy
oversight by the FONZ Board of        During the course of our audit, FONZ management, working with its Board,
Directors, management generally       adopted a new strategic plan that will focus on improving the visitor experience,
concurred with the report findings    enhancing partnerships with stakeholders, and achieving organizational
and recommendations. Based on         excellence.
improvements already
implemented by FONZ’s new             For additional information or a copy of the full report, contact the Office of
Executive Director, we are closing    the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
7 of the 16 recommendations
                                    Major Revenue Operations
                            Program*       FY 2005        FY 2006
                           Merchandise    $4,159,426     $5,687,401
                           Food Service   $3,814,496     $4,530,318
                           Membership     $2,165,117     $2,360,390
                           Parking        $2,151,796     $2,533,979
                          *According to FONZ, in FY 2006, fundraising events generated
                           $1,215,965 and picnics and parties generated $668,207.

To evaluate the operating efficiency and profitability of FONZ’s revenue operations, we
met with Zoo and FONZ officials; toured Zoo concession areas; and reviewed FONZ’s
internal controls, financial data, and information on the Zoo’s ten-year master plan. We
also visited seven large zoos in the East and Midwest areas of the country to observe their
revenue operations. Through a survey we developed, we obtained data on revenue
operations from a number of other zoos as well as Smithsonian Business Ventures and
                                                              1
compared key financial metrics to FONZ’s operating results. We focused our analysis on
2003 through 2005 as this was the most current data available at the time we conducted
our fieldwork. Since the completion of our fieldwork, 2006 data for FONZ has become
available and FONZ has indicated that, in comparison to the other years in our analysis, it
was a very successful year. A more detailed discussion of our scope and methodology is
included in Appendix A.

Appendix B contains additional charts and information comparing FONZ to other zoos
and SBV. Please note that comparisons throughout this report relating to cost of sales,
direct labor, and net contributions are shown as a percent of revenue, unless otherwise
stated.




1
    We did not verify the accuracy of the survey data provided by respondents for our analysis. We made
    certain adjustments to respondent data to improve comparability.
                                                         2
                                               TABLE OF CONTENTS


Results in Brief.......................................................................................................................4

Results of Audit .....................................................................................................................5

   Merchandise Operations...................................................................................................5

   Food Service Operations.................................................................................................10

   Customer Service.............................................................................................................13

   Opportunities Exist to Increase Parking Revenues by Curbing Free Parking .............15

   Goverance Over FONZ's Operations Needs Strengthening .........................................16

   Zoo Master Plan -- Vision for the Future ......................................................................19

Observations on the FONZ-Smithsonian Agreement.......................................................25

Summary of Management Response..................................................................................26

Office of the Inspector General Comments .......................................................................30

Appendix A. Scope and Methodology.............................................................................A-1

Appendix B. Financial Measures .....................................................................................B-1

Appendix C. Management Responses............................................................................ C-1

Appendix D. Contributors to the Report....................................................................... D-1




                                                                    3
RESULTS IN BRIEF

FONZ has provided significant contributions to the Zoo over the years. It promotes
quality educational programs for the public, generates profits from its concessions and
parking operations, and marshals hundreds of volunteers who help support many
important functions for the Zoo. Nonetheless, we identified numerous areas where FONZ
can improve its operations.

FONZ could increase sales and reduce expenses in its merchandise operations by
strengthening its inventory management practices, increasing retail square footage, and
streamlining its management and staffing structures. Further, the FONZ Board of
Directors and the Zoo should explore all options, including the feasibility of outsourcing
merchandise operations, to enhance profitability. We also noted that store presentation
needed to be improved, and by the end of our audit, we observed that FONZ had made
significant improvements in this area.
                                                                         Chart 1
While FONZ’s food and beverage                             Merchandise and Food & Beverage
revenues have generally been                                         Net Contribution
lower than those of the peer                              (as a Percent of the Peer Survey Average)
                 2
survey average, FONZ has                 120%
                                         100%
generated moderately higher net
               3                          80%
contributions owing to the lower                                     Peer
                                          60%
cost of its food sales. FONZ can                                    Survey
                                          40%
grow net contributions from its           20%
                                                                   Average

food services and improve the              0%
quality of the visitor experience                        2003                    2004                 2005
by expanding the use of its small                                          Merchandise  Food

permanent food and beverage               Chart 1 depicts merchandise and food service in relation to their peer
locations as well as its portable carts. survey averages and are not meant to be compared to one another.
In addition, FONZ should explore using carts to expand the variety of food items
offered. Chart 1 shows FONZ’s net contribution performance compared to the peer
survey average for both its merchandise and food and beverage operations.

We believe FONZ could also increase its net contribution to the Zoo by improving
customer service in its merchandise and food service operations. FONZ and the Zoo need
more comprehensive data about visitor experiences. Customer service feedback on
FONZ’s operations should be centralized and FONZ and the Zoo should establish a
coordinated process for documenting and evaluating comments and the results of follow-
up efforts related to customer complaints. FONZ needs to place more emphasis on
providing outstanding customer service in the training it provides to management and
permanent staff as well as to seasonal employees.

2
  Peer survey averages were computed based on our survey of 32 large zoos, with 18 respondents. The peer
  survey averages only include those zoos that operate their own concessions, which amounted to
3
  approximately ten for merchandise and eight for food service.
  Net contribution is sales revenue less cost of goods sold, direct labor expenses and other direct expenses.
  Other direct expenses were not fully comparable to other entities because of differences in expense
  structures and allocation methods.
                                                        4
Parking spaces at the Zoo are inadequate during peak months. FONZ and the Zoo, in
consultation with the Secretary, should examine two options for increasing parking
revenues: they should reevaluate the policy of allowing free parking for FONZ and Zoo
employees and others, and reexamine the unlimited free parking currently enjoyed by
FONZ members.

We observed two areas where governance over FONZ’s operations can be improved. The
first concerns the way policies and procedures are developed, approved, and documented.
The second concerns how FONZ’s Board monitors policy implementation.

Finally, looking to the future, we considered the Zoo’s ten-year master plan, which it has
been developing since early 2005. The master plan is essentially a blueprint for updating
the Zoo’s infrastructure and revitalizing its exhibits. Preliminary cost estimates range
from $500 million to $600 million. We identified four areas that could dramatically
increase future revenues and enhance the quality of the visitor experience: the expansion
of retail facilities, the expansion of food and beverage operations, the expansion of
parking facilities, and the addition of other entertainment amenities that have been
proven revenue-producers at other zoos. It is critical that the Smithsonian fully explore
these opportunities to maximize revenue for the Zoo. These facilities need to be included
in the master planning process from the outset. Building large, sustainable revenue-
generation into the design now will help maintain the Zoo at a world-class level well
beyond the initial ten-year planning horizon.

We are making 16 recommendations to strengthen FONZ’s operations and the oversight
of its activities.

RESULTS OF AUDIT

Merchandise Operations

Because the Zoo enjoys one of                                   Chart 2
the highest visitor attendance                            Merchandise Revenue
levels of any U.S. zoo, estimated               (as a Percent of the Peer Survey Average)
                                      250%
at about 2 million annually,
FONZ has been able to generate        200%

merchandise sales that far            150%
surpass the peer survey average
(see Chart 2). Nonetheless, its       100%

high cost of goods sold (COGS)         50%
                                                        Peer Survey
and direct labor expenses make                            Average
                                        0%
for net contributions that were
                                                 2003                  2004               2005
far below the peer survey
average. FONZ could increase sales and reduce expenses by improving how it manages its
merchandise operations. Specifically, FONZ should strengthen its inventory management
practices, increase retail square footage, reexamine its management and staff structure,
and improve store presentation.

                                              5
We also compared FONZ’s merchandise operations to SBV’s and found that FONZ
generated higher net contributions relative to revenues, but by other measurements,
FONZ performed both better and worse between 2001 and 2005. See Appendix B for
additional details.

Strengthen Inventory Management Practices

FONZ needs to strengthen its inventory management practices. We found that FONZ had
not developed meaningful inventory aging reports and lacked formal written policies to
improve sales of slow-moving merchandise. FONZ is performing some analyses of its
merchandise mix, but we noted that improvements could be made. For example, a
consultant retained by FONZ observed in 2007 that the overbuy of some merchandise
classifications needed to be kept under control and that other merchandise mix
allocations should be reevaluated. According to FONZ’s software provider, a customized
aging report could be designed for a fee of about $2,000. We believe that use of a
comprehensive aging report would enable FONZ to manage its inventory more
effectively.

We also noted weaknesses related to the inventory turnover rate and COGS. FONZ’s
inventory turnover in 2004 and 2005 was 18 to 19 percent less than the peer survey
average, a factor in FONZ having profitability below the average. However, we did note
that FONZ significantly improved its inventory turnover rate in 2006.
                              Chart 3
                           Cost of Goods Sold
                                                                       FONZ’s COGS exceeded the peer
                (as a Percent of the Peer Survey Average)
    120%                                                               survey average for all 3 years in our
    100%
                                                                       survey (see Chart 3). For example,
                                                                       in 2005, FONZ exceeded this
    80%
                       Peer Survey                                     average by 9 percent. If FONZ’s
                        Average
    60%                                                                COGS had been at the peer survey
    40%                                                                average, its net contribution would
    20%                                                                have increased by approximately
                                                                                 4
                                                                       $160,000.
     0%
                2003                 2004                   2005


A 2007 assessment by an independent retail merchandising consultant also identified
deficiencies in FONZ’s management of its merchandise operations. The consultant
concluded that FONZ’s inventory planning and controls were weak and its merchandise
assortment was too broad, and recommended reducing non-productive merchandise
styles, thereby decreasing related inventory costs. For example, the consultant observed
that 47 percent of the inventory generated the bottom one-third of sales dollars, while
only 14 percent of the inventory was invested in styles (types of merchandise) generating
the top one-third of sales dollars. The consultant’s analysis also identified missed sales,
reporting that nearly half of FONZ’s top 50 items were out of stock or had less than three

4
    We note that a high COGS as a percent of revenue could indicate either a higher price paid for
    merchandise or an insufficient retail mark-up.
                                                                   6
weeks’ supply on hand. Additionally, 5 of the top 10 items were out of stock or had under
two weeks’ supply. Further, staff in the merchandise operation was viewed by the
consultant as not motivated and the retail executive team appeared to lack merchandising
skills.

During our fieldwork, we also noted that FONZ should examine whether it could
improve its margins with more efficient sourcing. For example, because FONZ and SBV
sell similar items, such as panda bear plush items, we suggested that FONZ and SBV
pursue joint purchasing efforts to take advantage of volume discounts as well as other
related benefits. The then-president of SBV’s museum retail operations agreed to explore
a joint purchase program. Partnering with SBV would also further help FONZ’s stated
strategic goal of collaboration with the Zoo and the Smithsonian to “maximize the
combined strengths of all.”

Increase Square Footage of Retail Space

As has been pointed out by various consultants, current limitations on retail space
hamper FONZ’s ability to increase revenues from merchandise operations. FONZ should
develop a short-term plan to address this issue. In the longer term, FONZ, in
coordination with Smithsonian management, must fully integrate the locations and
designs of its retail merchandise and food operations into the Zoo’s ten-year master plan
                                            5
to maximize net contributions for the Zoo.

Currently, FONZ has approximately 3,700 square feet of permanent retail space, while the
peer survey average is approximately 6,500 square feet. A 2002 consultant’s study
concluded that FONZ’s retail space was insufficient for the Zoo’s existing visitation levels
and that it needed 6,300 square feet. We noted that FONZ’s 2005 sales per square foot
were three times the peer survey average. While this may be a positive indicator,
according to the Museum Retail Industry Report 2004 it could also indicate a need for
more space.

In the short run, FONZ should increase efforts to expand the use of carts, tents, tables,
and other temporary structures to supplement the lack of permanent square footage
available for retail. An independent retail merchandising consultant similarly noted
recently that FONZ should add overall square footage via new shops and/or carts and
kiosks. Particular attention should be given to strategically locating facilities around
the new animal habitats in Asia Trail I and the elephant habitat as part of Asia Trail II. We
expect that there will be a spike in visitors when Asia Trail II opens to the public, creating
significant sales opportunities.

In their plans for long-term retail growth, FONZ’s Board of Directors and the Zoo should
also fully explore the benefits of outsourcing FONZ’s retail merchandise operations.
Other zoos we visited or surveyed that used third-party entities to run their merchandise
operations generally had positive experiences. For example, one zoo stated that
“merchandise sales through our vendor have grown significantly.” Another zoo

5
    We discuss the longer-term issues in more detail in the report section on the master plan.
                                                        7
responded that once retail operations were transferred to an outside vendor they received
“positive revenue payback and (the) vendor has made significant improvements to (our)
retail stores.” Moreover, according to a contract proposal provided to FONZ by a
specialty retailer in 2005, the retailer would have provided FONZ one-time payments
totaling up to $899,000 and annual net contribution increases of 11 to 19 percent over
what FONZ was generating from its own merchandise operations. After analysis, FONZ
viewed the proposal as highly speculative and rejected it.

Regarding financial accountability and transparency for FONZ’s concessions, we observed
that the Board minutes often compared performance against annual budgets. However,
we saw little evidence in the minutes that the Board held FONZ management
accountable for meeting long-range financial or performance goals. FONZ’s former
Executive Director noted that he had not developed any strategic plans, but that FONZ
was incorporated in the Zoo’s strategic plan. FONZ recently established new Goals and
Strategic Priorities indicating that a 2007-2010 operational plan will be presented to the
Board. Furthermore, FONZ intends to define the means to measure, monitor, and
improve performance for each goal and component area. In our view, aggressive financial
targets need to be established for achieving and sustaining long-term growth and should
be used as benchmarks to evaluate FONZ’s performance and the benefits of outsourcing.

Streamline Overall Staffing Structure

FONZ should reexamine its overall staffing structure, which seemed top-heavy. Generally,
FONZ’s direct labor expense as a percentage of revenue has been higher than the peer
survey averages. For example, in 2005, the number of FONZ managers supporting
merchandise operations was 55 percent above the peer survey average. At the same time,
FONZ’s managers were overseeing 44 percent fewer staff than managers at other zoos.

As another example, one zoo we visited, with similar revenues, had an executive-level
manager, three store managers, and a part-time clerical employee. In contrast, FONZ had
two executive-level managers, four store managers (including an assistant manager), a
buyer, a full-time clerical employee, and retained the services of an outside merchandise
consultant to supplement its management.

In our view, FONZ has an opportunity to increase net contribution by reevaluating its
staffing structure. For instance, FONZ could compare its management and staff resources
to other zoos with similar revenues. FONZ agreed that this area requires further analysis
and indicated that it would review its staffing structure.




                                            8
Improve Store Presentation

At the time of our audit fieldwork, FONZ
needed to substantially improve the
presentation of merchandise in its stores.
During a walkthrough of FONZ’s stores
with the then-president of SBV’s retail
operations, we observed long lines due to
few cash registers, customers having
difficulty walking through crowded aisles,
and some shelves that were overloaded with
merchandise while others were empty. On
another visit, we noted boxes of
                                                                     2006 FONZ display - empty fixtures, unattractive merchandise
merchandise stacked on the store floor                               display, damaged wall
while some shelves were empty and
employees were conversing outside the front of the store. A 2007 assessment of FONZ’s
retail operations by an independent retail merchandising consultant also concluded that
FONZ’s merchandise presentation could be improved and that its stores were poorly
maintained.
                                                                                   At the exit conference we toured
                                                                                   the two largest retail facilities at
                                                                                   the Zoo with FONZ management
                                                                                   and noted that significant
                                                                                   improvements had been made to
                                                                                   the presentation of these stores.
                                                                                   FONZ also added a cash register
                                                                                   to its largest store. According to
                                                                                   FONZ’s Executive Director, one
                                                                                   of the refurbished stores has
                                                                                   realized a 12 percent increase in
                                                                                   sales as compared to the same
 2007 FONZ display - stocked fixtures, attractive merchandise display, fresh paint
                                                                                   period last year, and FONZ will
continue to reevaluate its floor designs and layouts, fixtures, and overall visual
presentation.

Recommendations

To strengthen management of FONZ’s merchandise operations, we recommend that the
Executive Director, FONZ:

     1. Develop detailed inventory aging reports and perform appropriate analyses to
        ensure optimum stock levels and improve overall inventory management.

     2. Determine why FONZ’s COGS appears to be higher than the peer survey average
        and make appropriate changes as necessary, including possible joint purchasing
        opportunities with SBV.

                                                               9
       3. Increase efforts to expand the use of carts, tents, tables, and other temporary
          structures to grow merchandise net contributions.

       4. Reexamine FONZ’s overall staffing structure and make adjustments as warranted.

To maximize net contributions from merchandise operations, we recommend that the
FONZ Board of Directors and the Zoo:

       5. Establish aggressive, but achievable, financial targets for revenue and net
          contribution growth and explore all options, including the feasibility of
          outsourcing merchandise operations, for achieving these targets.

Food Service Operations

While FONZ’s food and beverage revenues have generally been lower than the peer survey
average (see Chart 4), FONZ has generated higher than average net contributions from
food service because of its lower cost of food sales (see Chart 5). Based on the
limited third-party concessionaire data provided by SBV (data that accounted for about
one third of SBV’s total food revenues), we noted that FONZ produced net contributions
that were double SBV’s.6
                            Chart 4                                                        Chart 5
                       Food & Beverage Revenue                                            Cost of Food Sold
               (as a Percent of the Peer Survey Average)                      (as a Percent of the Peer Survey Average)
    120%                                                               120%

    100%                                                               100%

     80%                                                               80%
                        Peer                                                           Peer
     60%               Survey                                          60%            Survey
                       Average                                                        Average
     40%                                                               40%

     20%                                                               20%

      0%                                                                0%
               2003                 2004                   2005               2003                 2004                   2005



Nonetheless, we believe that FONZ can increase net contributions from its food services
by expanding the use of its small permanent locations as well as portable carts. To do so,
FONZ should employ a more effective strategy for staffing the facilities, especially during
peak months, and consider offering a wider variety of food. According to discussions with
FONZ officials, a key approach to staffing its food services has been to recruit students
from the inner city. FONZ also employs other methods of recruiting, such as job fairs and
newspaper and online job postings. However, FONZ still had not succeeded in obtaining
adequate resources to open many of its food service locations. For example, according to
FONZ’s Director of Food Service, in 2006 FONZ needed 108 food service employees to
staff all food service locations fully but was only able to fill 70 positions. Excerpts from
visitor letters we reviewed also reinforce the need to focus attention on expanding food


6
    SBV’s “net contribution” refers to the percentage of gross food sales (less discounts) received by SBV from
    its third-party concessionaires.
                                                                  10
and beverage services. One April 2006 visitor wrote that “the lack of water available for
purchase is pathetic.” Another frustrated customer during a peak month vented to us that
she had to wait in line a long time for water because the vending machines were not
stocked. FONZ’s inability to staff its food services adequately translates into lost
opportunities to grow profits as well as negative visitor experiences.




                           Un-staffed FONZ food stands during 2006 peak season

FONZ also should explore
using smaller locations and
carts to expand its variety of
food items. A 2002 consultant
study similarly recommended
that FONZ expand its cart
program. Currently, the
majority of FONZ’s food sales
are from the standard hot dogs,
hamburgers, chicken nuggets,
pizza, and popcorn fare. Other
zoos we visited offered a much                       Columbus Zoo’s offerings include spring rolls,
                                                     teriyaki chicken, and General Tso’s rice bowls
wider variety of foods such as
made-to-order wraps, culturally
diverse dishes, branded ice
cream products, fresh-cut
potato chips, homemade fudge,
and fresh-squeezed lemonade.

We found that many zoos
contract out at least some of
their food services, particularly
portable carts, and have reaped
significant financial benefits.
Third-party concessionaires can                Lincoln Park Zoo offers Mexican dishes

provide quality specialty food offerings and generate increased cash flow. For instance,
one zoo in our survey stated that outsourcing carts resulted in a doubling of cart

                                                  11
                                                               revenues. FONZ told us that in the past they had
                                                               attempted to use third-party concessionaires on
                                                               a temporary basis to provide supplemental food
                                                               service, but because of other events occurring
                                                               around the District, they had difficulty acquiring
                                                               services. We believe that pursuing seasonal or
                                                               longer-term contracts with third-party
                                                               concessionaires for supplemental food service
                                                               could help solve FONZ’s recruiting problems,
                                                               create an opportunity to provide visitors with a
                                                               better variety of food offerings, and yield more
                                                               profits for use in expanding the Zoo’s
Saint Louis Zoo’s fresh potato chip stand illustrates use of   educational and conservation programs.
third-party concessionaire

At the time of our exit conference, we took a
tour of some areas of the Zoo with FONZ
management and noted that there was an
increased cart presence from third-party
concessionaires, including specialty items
such as gelato and fresh-squeezed lemonade.
FONZ acknowledged the difficult challenges
in recruiting concessions staff and indicated
that it is evaluating its recruiting program
and taking steps to recruit and retain quality
employees in sufficient numbers.
                                                                       FONZ recently added new third-party concessionaire
                                                                       carts for fresh-squeezed lemonade and snacks
Recommendations

To increase food and beverage revenues and improve visitor services, we recommend that
the Executive Director, FONZ:

      6. Expand the use of its small permanent locations and portable carts by developing a
         more effective strategy for staffing the facilities and serving a wider variety of food
         items at these locations.

      7. Increase efforts to award seasonal or longer-term contracts to third-party
         concessionaires for supplemental food services.




                                                                 12
Customer Service

We believe FONZ could increase net contributions from merchandise and food
operations by enhancing the quality of the visitor experience. FONZ and the Zoo obtain
customer satisfaction data through a variety of sources including visitor surveys
conducted by an outside consultant and “secret shopper” reports. Visitors also
communicate their experiences through comment cards, emails, and letters. Based on
these sources of feedback and our own observations, customer service could be improved.
Further, we found that FONZ lacked a disciplined process for handling and learning from
customer feedback.

For merchandise operations, a visitor survey performed by an outside consultant in the
fall of 2004 (the latest year available) found that employee courtesy had improved since
that summer. Nonetheless, FONZ fell far below the averages of other zoos in this survey
for scores related to merchandise quality, price, and percentage of visitors making
purchases. Moreover, we note that for the Zoo to “be the world’s finest,” FONZ will need
to achieve higher levels than the averages.

Secret shopper reports for 2005 and 2006 showed that employee courtesy towards visitors
needed improvement. For instance, in 2005, FONZ store employees did not greet one in
four secret shoppers in a friendly manner. In 2006, FONZ cashier and floor employees
failed to greet secret shoppers in a friendly manner 31 percent and 44 percent of the time,
respectively. More than one in four secret shoppers were not encouraged to visit again or
given a friendly goodbye by FONZ cashiers.

Regarding food service, a visitor survey from 2004 (the latest year available) documented
that food lines were too long, many food facilities were closed, and beverage vending
machines were not operating. FONZ scores for food price and quality were below the
averages of other zoos. For example, on food prices, only 3 percent of Zoo visitors gave
FONZ the highest rating, versus the 28 percent average of other zoos in the survey.
Twenty-one percent of Zoo visitors gave food quality an excellent rating compared to the
benchmark of 52 percent. It appears to be making progress. We noted that the 2006 secret
shopper reports showed that 46 percent of secret shoppers gave food taste an
“outstanding” rating and 49 percent gave it a “good” rating. Again, FONZ should strive to
surpass the average ratings for other zoos to accomplish its strategic goals.

Secret shopper reports for 2006 generally indicated that FONZ food employees were
attentive, knowledgeable, and tendered transactions properly. However, one in five secret
shoppers was not greeted in a friendly manner or thanked after the transaction. Further,
between 2005 and 2006, secret shopper scores reflected a general decline in cleanliness of
the food facilities. We experienced much the same during our visits to the Zoo, observing
long lines and unkempt areas at the Mane Restaurant. A summer 2006 visitor complained
that “your employees working at the gift shop and snack stands were rude and were more
interested in talking with each other than waiting on the customers.”




                                            13
We also found that there was no effective process for documenting and evaluating visitor
feedback on FONZ’s operations or for the follow up and resolution of associated
customer complaints because the information was dispersed to many offices without any
centralized tracking. FONZ was unable to provide any visitor comment cards to us
because it disposed of the cards after review. FONZ also could not provide any evidence
of required log-in or aggregated data used to analyze problems communicated through
comment cards, emails, or letters. In our discussions with FONZ’s former Executive
Director, he indicated that the complaints were usually about issues FONZ already knew
about. Yet the Zoo and FONZ could provide only limited information on follow-up
actions to correct the deficiencies and to communicate to the visitors. Further, while
secret shopper results were routinely discussed during management and staff reviews,
according to FONZ officials, performance goals for customer satisfaction were not
established in employee performance plans. Consequently, we found a lack of
accountability for timely resolution and lasting correction of customer service shortfalls.

According to best practice, creating a customer feedback system provides an opportunity
to discover potential problems early and begin to correct them. To be effective, however,
gathering and measuring customer feedback must be consistent, and the results must be
reviewed frequently. For example, over time, comment cards can help management gauge
the quality of both the service and food from the customer’s perspective.

Both the Zoo and FONZ have made it a strategic goal to ensure that every visitor is
provided with outstanding customer service and amenities. To reach this goal, FONZ
needs to ensure that the formal and refresher training provided to management,
permanent staff, and seasonal employees places more emphasis on providing outstanding
customer service. We noted that FONZ offered one basic training class a year, and,
according to the former Executive Director, this training was conducted differently each
year. One manager noted that increased employee incentive programs such as perfect
attendance or employee-of-the-month awards could help to improve performance.
Increased training and incentive programs could also help FONZ achieve its stated goal of
“maintaining competitive business practices, setting objectives and rewarding success, and
providing developmental and leadership opportunities.” In addition, having well-defined
standards for the visitor experience enables organizations to better hold managers and
staff accountable for performance.

The current Executive Director stated that FONZ will develop a new training program
based on recently adopted customer service standards. Further, he indicated that FONZ is
developing a concessions staff enrichment program to provide behind-the-scenes animal
tours and other opportunities to connect staff more closely with the Zoo. FONZ also is
working with the Smithsonian’s Office of Policy and Analysis to design, administer, and
analyze visitor surveys on a regular basis.




                                            14
Recommendations

To improve visitor services, we recommend that the Executive Director, FONZ and the
Zoo Director:

       8. Continue to improve customer service training opportunities and incentive
          programs for permanent and seasonal retail and food operations staff, and have
          the training stress courtesy to visitors and keeping facilities clean and organized.

       9. Establish a process for documenting and evaluating visitor feedback on FONZ’s
          operations and the results of follow-up efforts to resolve customer service issues.

Opportunities Exist to Increase Parking Revenues by Curbing Free
Parking

FONZ’s parking revenues topped $2.5 million in FY 2006, an increase of nearly $400,000
from FY 2005. The increase mainly reflects growth in the number of Zoo visitors as well as
the full-year effect of a 2005 rate hike to a maximum of $16 for parking of three hours or
more. We identified two areas FONZ and the Zoo should examine that, in our opinion,
could yield even greater revenues from parking. The first involves a reevaluation of the
policy allowing free parking for FONZ and Zoo employees and others. The second area
requires an examination of the unlimited free parking benefits enjoyed by FONZ
members.

In reviewing the peer survey responses, we noted that other zoos averaged nearly 2,000
visitor parking spaces. In contrast, the National Zoo has fewer than 900 spaces, the second
lowest in our survey, even though the Zoo’s visitation levels are among the highest of its
peers. Because of the limited parking spaces available, FONZ’s website advises visitors that
during peak months the parking lots fill up early in the morning. Consequently, we
believe that FONZ needs to fully explore opportunities for opening up additional parking
spaces for paying visitors.
                                                                7
On the first issue, during a fiscal year 2005 audit of parking, we noted six categories of
visitors that received free parking: Zoo employees, FONZ employees, FONZ members,
FONZ volunteers, vendors, and guests attending special events. When totaled, up to
30 percent of the vehicles parked in the Zoo lots did not pay parking fees. To our knowledge,
other District-based Smithsonian units do not routinely provide free parking to their
employees. In our view, during peak periods, free employee parking at the Zoo should be
restricted. During off-peak periods, when parking spaces typically go unused, free
employee parking could be allowed as an employee benefit without detriment to parking
revenues.

The second area that needs examination is the unlimited free parking benefits for FONZ
members. We recognize that the relationship between annual membership dues,
admission fees, and parking fees is complex. However, the National Zoo is one of only

7
    Parking Operations at the National Zoological Park, No. A-04-09 (December 27, 2004).
                                                      15
three large zoos that do not charge admission. Moreover, despite a March 2006 rate
increase, FONZ charges the lowest dues for household memberships, $55, versus a range
of $65 to $99 for household/family memberships at the other seven zoos we visited. The
primary membership benefit at most of the other zoos was free admission, while FONZ
members cite free parking as one of their most important benefits. We also noted that the
two other large zoos that did not charge admission placed limitations on free parking for
their members. A couple of zoos we visited also were considering eliminating free parking
as a membership benefit; one of these was discussing only offering free parking to
members during the off-season. In comparison to its peers, about 40,000 FONZ members
enjoy the lowest annual household membership dues, do not pay admission, and receive
unlimited free parking.

FONZ officials told us during our audit that FONZ had no current plans to limit free
parking for its members but will continue to evaluate member parking benefits in the
future. We think the parking issue warrants additional scrutiny. Offering unlimited free
parking during the off-peak months and limiting free parking to perhaps one or two
visits during peak months (with reduced rate parking for additional visits) would be a
good way to provide a valued member benefit while also increasing parking revenues.

Recommendations

In view of the parking constraints at the Zoo, we recommend that the Executive Director,
FONZ and the Zoo Director, in consultation with the Secretary:

   10. Reevaluate the policy of allowing free parking for FONZ and Zoo employees and
       others.

   11. Reexamine the unlimited free parking benefits enjoyed by FONZ members and
       consider limiting free member parking during the peak months.

Governance Over FONZ’s Operations Needs Strengthening

FONZ’s external auditors issued an unqualified opinion on FONZ’s financial statements
for each year in our review period. And, to its credit, FONZ has generally corrected
internal control weaknesses identified by its auditors. However, we identified two areas
where governance over FONZ’s operations can be improved. The first concerns the way
policies and procedures are developed and documented. The second addresses how
FONZ monitors policy implementation.

Policies and Procedures

In our opinion, FONZ needs to establish a more disciplined system for developing,
approving, and documenting formal policies and procedures for its operations. FONZ did
not maintain a central file of current, approved policies and procedures. Instead,
individual departments were expected to develop their own procedures on an as-needed
basis. Further, while FONZ has written policies addressing many activities, most policies

                                            16
we reviewed were not formally approved by FONZ’s Board of Directors8 nor did they
evidence executive approval. Formal policies are the tools that management uses to
efficiently and effectively control its operations, and it is important for the Board to
formally approve key, overarching policies to steer the organization in the desired
direction and set the tone from the top. In our view, it is also important for departmental
policies and procedures to document executive-level review and approval.

When we asked department managers for copies of their policies and procedures, in some
cases we were told that the documents were either being revised or had not been
developed. For example, when we requested operating policies on merchandise buying
and retail pricing guidelines, FONZ prepared a summary of procedures in use rather than
providing us with formally approved written policies and procedures. Additionally, while
the food and beverage operation uses a competitive bidding process, there was no written
policy requiring and outlining that process. Also, at the time of our request for written
procedures, FONZ did not provide us with bank reconciliation procedures and was not
consistently performing bank reconciliations in a timely manner. They have since
implemented detailed monthly reconciliation procedures.

FONZ also could not provide written policies on access control restrictions for its
financial systems. At the time of our review, FONZ allowed full access to its financial
system by most business office staff. FONZ’s recently hired controller stated that he did
not believe the financial system allowed for journal access to be restricted once a user was
in the system. However, FONZ indicated that there were mitigating controls in place such
as the monitoring and approval of journal entries and reconciliations. While we agree that
some mitigating controls exist, we believe that segregation of duties could still be
strengthened.

The lack of proper segregation of duties and system access restrictions creates an undue
risk that an individual with custody of assets could make accounting entries to hide theft
of funds or to cover up shoddy or incomplete books of account. For example, we noted in
FONZ’s payroll policy one person was assigned payroll duties, but had full access to the
accounting system. A payroll technician who prepares the payroll and authorizes
disbursement of funds should be restricted from access to the accounting records. At a
minimum, this policy should require that another employee enter payroll transactions
into the financial system and a supervisor should review and authorize the transaction.
Best practices require system access levels to be restricted to the minimum necessary to
                              9
perform required job duties. While we recognize that it is difficult for a small office to
maintain complete segregation of duties, we believe FONZ has room to strengthen
controls by reducing system access privileges for some business office staff.




8
  FONZ’s Board of Directors comprises 24 volunteers from various distinguished backgrounds. The Board,
   through its six committees, supports FONZ’s mission to enhance and promote conservation, education
9
   and science at the National Zoo.
  For example, Appendix III to OMB Circular A-130, Security of Federal Automated Information Resources
  addresses restrictions on system access levels.
                                                  17
Oversight of Policy Implementation

FONZ’s Board could better document the results of its meetings, and the Finance and
Audit Committee should strengthen its oversight of FONZ’s internal controls. FONZ
could not provide the minutes of its Board meetings for four months of our review
period. Further, many Board minutes they did provide were labeled draft and did not
have signature approval, and therefore we could not determine if these minutes were
final. We noted that most draft minutes included a statement of approval of the prior
month’s minutes. In addition, FONZ could not provide any minutes for its Finance and
Audit Committee meetings.

The Finance and Audit Committee is responsible for budget review, financial statement
oversight, internal controls oversight, and investment activity. We identified two areas
where committee oversight could be improved. First, during our review of FONZ’s
external auditor’s work papers, we noted that the committee asked FONZ’s former
Executive Director to perform a risk assessment and submit a written report on the
mitigating controls that were in place. While FONZ’s former Executive Director told us
that FONZ completed an assessment, he could not provide any written documentation of
the assessment findings or any related actions taken in response, nor did we find any
mention of the assessment results in the Board minutes we reviewed.

Second, while FONZ did develop investment policies, it was not consistently following
them. As an example, the investment policy requires the committee to meet quarterly,
which they did not. Moreover, FONZ’s operating personnel, rather than a committee
member, received investment reports and had apparent authority to direct investments.
In 2004, after carefully considering proposals from investment firms, the Board approved
U.S. Trust as FONZ’s investment broker. U.S. Trust established client objectives based on
discussions with FONZ. These objectives identified an investment time horizon of “at
least 3 to 5 years.” This objective conflicts with FONZ’s policy requiring capital reserves to
be classified in the following manner: up to 1 year, 1 to 5 years, and over 5 years. Because
the “at least 3 to 5 years” designation does not fit within FONZ’s policy classifications, it is
difficult to assess policy compliance.

Today’s increased public scrutiny of nonprofit organizations requires greater oversight of
operations by their Boards as well as by top management. FONZ’s Board and executive
management need to ensure that they adopt appropriate policies and procedures and
implement them in accordance with the needs of the organization.

Recommendations:

We recommend that the Executive Director, FONZ:

    12. Establish a more disciplined system for developing, approving, and documenting
        formal, written operational policies and procedures and provide oversight to
        ensure that policies and procedures are implemented as designed.



                                              18
   13. Ensure a proper segregation of duties in financial operations and restrict financial
       system access to the greatest extent possible.

We recommend that the FONZ Board of Directors:

   14. Direct the Executive Director to document a thorough risk assessment and report
       to the Board on FONZ’s system of mitigating controls.

   15. Implement oversight procedures in accordance with FONZ’s investment policies.

Zoo Master Plan - Vision for the Future

The Zoo has been developing a ten-year master plan since early 2005. The master plan is
essentially a blueprint for updating the Zoo’s infrastructure and revitalizing its exhibits to
provide every Zoo visitor with a world-class educational, exciting, and enriching
experience. Preliminary cost estimates range from $500 million to $600 million. The Zoo
expects funding to be shared between federal and private sources. Since the Zoo resides
within the National Capital Region, various agency reviews are required, such as by the
National Capital Planning Commission (NCPC). The NCPC is the central planning
agency for the federal government and seeks to protect and enhance the extraordinary
historical, cultural, and natural resources of the nation's capital. According to the
Smithsonian’s Office of Facilities Engineering and Operations (OFEO), the NCPC must
approve the master plan before it can be implemented.

Because this audit focused on revenue-generating activities at the Zoo, we held
discussions with Zoo, FONZ, and OFEO representatives to determine the extent to which
revenue-generating operations were being reflected in the master plan. According to these
officials, the master planning process was still in its initial stages, and they had
concentrated their efforts on infrastructure renewal and facilities. While consultants did
perform some studies on visitor amenities and FONZ is a member of the master planning
team, the team was not focused on revenue operations. According to OFEO, the master
plan process is more of a broad-brush approach and is not intended to be the end of the
planning process. The needs identified in the approved master plan will feed the
development of more detailed capital project plans. In our opinion, the team should fully
integrate revenue operations into the master planning process from the outset to
maximize future revenue contributions for the Zoo’s conservation and education
programs and to develop outstanding visitor services.

We recognize that FONZ and the Zoo need to make difficult decisions in balancing
expansion of animal exhibit space with the need to maximize revenues from concessions
and other visitor amenities that support Zoo operations. Prior Zoo Directors chose to
focus heavily on animal exhibits, which restricted FONZ’s ability to generate revenues for
the Zoo’s programs. For example, according to FONZ, proposed retail space was
eliminated in the Zoo's planning and design of the Kids’ Farm and Asia Trail I to enhance




                                              19
the footprint for animals and exhibits. Now, according to Zoo and FONZ officials, paths
along Asia Trail I are not wide enough for peak visitation, severely restricting the space
available for visitor amenities.

FONZ’s Executive Director is currently trying to add certain amenities to the new Asia
Trail II project, because they were not fully incorporated in the capital project plan from
the outset. Consequently, the completion of these amenities will lag beyond the rest of the
project and will potentially result in a less integrated visitor experience. Additionally, late
scope changes usually cause delays, increase costs, and create uncertainty and challenges
with acquiring necessary approvals from NCPC and other government entities. OFEO
agrees that it is crucial to fully integrate revenue operations early in the master planning
because all positive and negative impacts from these facilities must be taken into account.

We identified four areas that the Zoo, FONZ, and OFEO should examine more fully in
the early stages of planning because they could substantially increase future revenues and
enhance the quality of the visitor experience: the expansion of retail facilities, the
expansion of food and beverage operations, the expansion of parking facilities, and the
addition of entertainment amenities that have proven successful at other zoos.

Expand Retail Facilities. Based on information in a
2002 study performed by a FONZ consultant and
                                                     10
using projected visitation figures of three million,
we project that by 2016 about 11,000 to 12,000
square feet of retail space – three times the existing
facilities – will be needed. A 2005 consultant’s
study also found FONZ’s existing retail
configuration deficient. Further, a more recent
2006 National Zoological Park Entry and
Transportation Capacity Assessment noted that
about 15,000 square feet of retail space would be
required to accommodate the same visitation
levels, assuming various Metro shuttle alternatives.
Accordingly, we believe that the master planning
                                                           Toledo Zoo’s retail space located near an animal
team should fully consider the Zoo’s retail space          exhibit features exhibit-related items and other
needs in all phases of its redesign of the Zoo. The        merchandise

design, size, and locations of the retail space are crucial to efficient visitor traffic flows,
high capture rates, and an enjoyable visitor experience and, consequently, the ability to
maximize retail revenue. The design and location of the retail space needs to be
strategically selected to complement and further the Zoo’s educational and conservation
themes and, according to experts we talked to, should be situated as close to exhibits as
possible.




10
     Projected visitation of three million is based on the Traffic, Parking and Visitation Study presented in
     April 2006 to the Master Plan team.
                                                         20
Expand Food and Beverage Operations. The Zoo’s master planning process should
include greater consideration of the need to expand food and beverage operations, with
an emphasis on special events facilities that include catering amenities. Many of the zoos
we surveyed indicated that the largest opportunities for revenue growth were from
catering for special events, particularly those of a personal nature such as weddings,
birthdays, retirements, and reunions. Other zoos have structures that range from large
multi-purpose permanent dining facilities to outdoor covered pavilions that can be
configured for picnics or formal occasions. In some cases, corporate donors provided
much of the capital to build the facilities.




          Saint Louis Zoo’s dining facility with indoor and outdoor seating can also be converted to host special events

These zoos reported 2005 food and beverage revenues from catering in the hundreds of
thousands of dollars. One zoo with in-house catering earned revenues of over $1 million,
and some zoos reported a very robust and growing demand for these facilities. In contrast,
FONZ reported 2005 revenues from catering of only $44,000. FONZ is unable to provide
much in-house catering for events due to its limited facilities. However, FONZ does host
many corporate picnics and parties which are held in rented tents, outdoor areas, and
                                                animal or educational buildings, primarily
                                                using outside caterers. In 2005, FONZ
                                                generated $564,000 in revenue from
                                                hosting picnics and parties. FONZ’s
                                                Executive Director noted that FONZ hosts
                                                over 110 of these events each year. This
                                                further supports our supposition that
                                                there is a high demand for special event
                                                facilities with the potential for generating
                                                additional profits by providing the catering
                                                as well.
   Saint Louis Zoo’s visitor center may be converted to host
   special events (the building also contains kitchen facilities)
                                                 In our opinion, having world-class special
event facilities will not only benefit FONZ and the Zoo by generating sizeable profits for
education and conservation efforts, but will also enhance fundraising efforts by building a
broader public appeal. Increasing such uses also aligns closely with FONZ’s recently
published goals and strategic priorities to “develop and host events that attract expanded
audiences, strengthening the affiliation of the public with the Zoo” and “strengthen and
expand partnerships with corporate, governmental, non-profit, and educational entities.”

                                                                    21
We recognize that to expand catering and special events, FONZ and the Zoo will either
need to obtain a waiver from the Smithsonian Secretary or succeed in modifying
Smithsonian policy that restricts the use of
                                          11
Smithsonian facilities for social events. We note
that the Institution has granted waivers to the
Cooper-Hewitt National Design Museum to host
weddings. In our discussions about removing the
policy restrictions on hosting social events for the
Zoo, management expressed many concerns,
including, in part, additional labor costs to run
the events; facilities security and maintenance
expenses; payment of unrelated business income
tax; maintaining political neutrality; over-
commercialization; and animal welfare. While
these are all valid and significant concerns, we
believe that the proper design and location of the
facilities – integrated early in the master planning
process – combined with appropriate policy
restrictions (on political functions for example)    Saint Louis Zoo’s semi-permanent tent facility used to
can mitigate these concerns. Certainly, a credible host special events during the period April – October
business plan will need to be developed that makes a compelling case for the expansion.
The Zoo should carefully reexamine this issue and its full potential for the long term.

Expand Parking Facilities. The Zoo must provide for substantially increased parking
facilities or other convenient transportation alternatives in its master plan if it expects to
attract visitors at the levels projected and deliver a world-class visitor experience.
Nevertheless, according to discussions with the Zoo’s Deputy Director and other
members of the planning team, the master plan will not provide much additional visitor
parking, and employee parking will be problematic as well. We noted that a master plan
study on parking concluded that at least 2,000 spaces are needed to accommodate
the projected attendance levels. And, even with 2,000 spaces, there will still be some days
when parking will be insufficient. Yet, the master plan alternatives being considered
ranged from no net increase to an increase up to 1,200 total spaces. The overarching
assumption is that future attendance will need to be increasingly dependent on public
transit. We noted that parking facilities are inadequate during peak times for existing
attendance levels of about 2 million. At projected levels of 3 million, demand would
exceed existing parking facilities for more than 4 months of the year.

Public transportation has been readily available for many years and surveys have shown
that about one-fifth to over half of Zoo visitors already use it. Some studies have also
demonstrated that nearly two-thirds of visitors used their cars to visit the Zoo. Families
with young children, seniors, and people with physical limitations may have difficulty
using public transportation to visit the Zoo. During our visit to the Philadelphia zoo,
officials lamented that “their biggest limitation to increasing visitation is parking,” a

11
     Smithsonian Directive 401 restricts the use of Smithsonian facilities when the primary purpose is social in
     nature, such as weddings, birthdays, or retirement parties.
                                                        22
common theme at many of the zoos we visited. In keeping the world-class goal in mind,
the Institution needs to reexamine the parking issue and fully evaluate the detrimental
effects of not providing sufficient parking or viable alternatives for all of its patrons.

Add Amusement and Entertainment Amenities. While the Zoo is considering adding a
carousel, specifics for entertainment amenities continue to evolve as part of the master
planning process. We would urge the Zoo to commit to adding a carousel to its planned




 Carousel at the Columbus Zoo - Carousels could include
                                                                           Toledo Zoo’s seated amphitheater hosts concerts and
 sponsored animals and rocking chairs, attached birthday party
                                                                           other special events
 room, and year-round enclosure

amenities. We note that other zoos are making substantial profits on carousels as well as
simulators, concert pavilions and amphitheaters, train rides, seated animal rides, paddle
boats, and movie theaters. These amenities not only bring in needed financial
contributions, they substantially enhance the enjoyment and educational experience for
zoo visitors.

Current draft master plan alternatives include options for a carousel as well as an aerial
tram or a surface tram/bus to transport visitors around the Zoo. We note that nearly
every zoo we visited had a carousel and some type of train ride. These particular amenities
combined earned hundreds of thousands of dollars in free cash flow each year.
Additionally, in many cases, donors contributed all the capital costs. Financing also may
be structured to periodically bring in renewed capital contributions. Moreover, given the
size and hilly terrain of the National Zoo, most visitors would benefit from some type of
transportation option to navigate the Zoo’s widely dispersed exhibits. Well-chosen stops




           Zoo Atlanta’s train ride to see exhibits              Lincoln Park Zoo’s trackless children’s train requires little space


                                                                 23
could be matched to key exhibits and be co-located with merchandise and food facilities
to further enhance visitor convenience. Some other zoos also had either train rides that
circled exhibits and provided an educational tour or small trackless train rides for
children.

Recommendations

To increase future revenues and enhance the quality of the visitor experience, we
recommend that the Directors of the Zoo and OFEO, and the Executive Director, FONZ,
in consultation with the Secretary:

   16. Fully examine the following options during the master planning process:

           a. Expand existing retail facilities to accommodate expected visitation levels
              and locate new facilities to maximize revenue and convenience for zoo
              visitors.

           b. Expand food and beverage operations, especially catering and special event
              facilities, and obtain needed waivers or modify policy restrictions on
              hosting social events at the Zoo.

           c. Fully document ways that future attendance levels will be accommodated
              either through increased parking or other transportation alternatives.

           d. Add amusements and entertainment amenities, particularly a carousel and
              some type of train ride or tram throughout the Zoo to enhance future
              revenue streams and the enjoyment and educational experience for Zoo
              patrons.




                                            24
Observations on the FONZ-Smithsonian Agreement

FONZ and the Smithsonian signed an agreement in 2003 that established responsibilities
and expectations for FONZ as well as various Smithsonian stakeholders. Two issues came
to our attention during our review that we believe merit management attention. First, the
agreement assigns SBV the primary responsibility for Smithsonian management oversight
of all FONZ-managed concessions, requires SBV to review and approve any changes in
menu, portions presentation, or prices proposed by FONZ. In addition, it requires SBV to
approve in advance any contract for third-party vendors to provide retail sales services.
Finally, it requires SBV to perform an annual review of FONZ’s preventive maintenance
program for equipment used by FONZ in its concession activities.

We found that SBV provided little oversight during the period covered by our audit. In an
interview, SBV’s former Chief Operating Officer indicated that SBV put forth
little effort for FONZ. While SBV did provide reviews of parking rates, a food concession
proposal, and other areas, SBV’s former Chief Financial Officer acknowledged that SBV
had minimal involvement with FONZ and had not provided the level of oversight
expected in the agreement. Neither SBV nor FONZ were able to provide documentation
of any ongoing oversight activities.

The second issue concerns a provision in the agreement that requires FONZ to pay an
annual concession fee of four percent of gross merchandise and food sales to the
Smithsonian. The agreement, as written, is unclear regarding the intent of this concession
fee or where within the Smithsonian FONZ should pay it. In practice, FONZ has been
making the payments to SBV, and SBV has included the payments as revenue for
purposes of calculating its net gain. We noted that between 2003 and 2006, the cumulative
fees amounted to $1.2 million. In 2006, for example, the fee was $383,000, and it reduced
FONZ’s total merchandise and food net contribution to the Zoo by 12 percent.

After reading the agreement, we assumed that the concession fees were in exchange for
SBV’s required oversight services. However, when we questioned Zoo and FONZ officials
on the rationale for the payments, they indicated that the fees were designed primarily to
offset services provided by the Smithsonian, such as security, IT equipment and support,
utilities, and executive overhead. In our view, if the fees were for SBV oversight, it
certainly appears that FONZ has not received commensurate value for its money. If they
were for Smithsonian support services, then the fees should have been paid directly to the
central trust fund, not funneled through SBV. We suggest the agreement be amended to
clarify what the concession fees are for and specify both where the payments are to be
made and the basis for the payments, as appropriate.




                                            25
Summary of Management Response

FONZ’s June 18, 2007 and the Zoo’s June 15, 2007 responses to our draft report generally
agreed with the report’s findings and 15 of our 16 recommendations. Management noted
that many of the recommendations have been actively addressed or were in the process of
being addressed over the past year by new FONZ management. FONZ has improved its
operations by reducing nonproductive inventory, enhancing its store presentation,
expanding cart and tent food offerings, strengthening customer service training, and
employing a more effective strategy for staffing facilities. FONZ indicated that it will
continue to use all information and report recommendations to improve FONZ revenue
operations and support for the Zoo.

The FONZ Board did not concur with our recommendation regarding the lack of Board
oversight on investment policies. FONZ’s Executive Director also expressed two chief
concerns regarding our observations on FONZ’s financial measures. First, FONZ
questioned the methodology we employed in comparing FONZ with other zoos because
we could not address factors such as differences in size of usable zoo property for parking,
amenities, and exhibit space, as well as differences in zoo philosophies regarding zoo
amenities or differences in labor and other costs. Second, FONZ noted that the focus of
our financial analysis was the period 2003 through 2005 and that because the audit period
was dated, the report may give readers the impression that it reflects current conditions
and practices.

Since we received the responses in June, we held several follow-up meetings with Zoo and
FONZ officials to clarify areas of concern and reach resolution on as many issues as
possible, including more details on actions to be taken and target dates for
implementation. Management also provided us with substantial, additional
documentation to supplement their formal responses, and our summary comments
incorporate this additional information. Management’s planned actions are as follows:

Recommendation 1. FONZ partially concurs. While FONZ agrees that performing
effective analyses is important to ensure optimum stock levels, it does not believe that a
specific inventory management tool -- a detailed inventory aging report -- is necessarily
the best way to improve inventory management. FONZ has committed to improving its
inventory management and provided information on significant actions it implemented
during the latter part of our audit. FONZ improved its inventory turnover rate from 2.7
in 2005 to 3.5 in 2006. Moreover, it performed an inventory analysis at the end of 2006
and has taken steps to streamline its inventory. According to FONZ, it reduced inventory
levels from a high of $1.3 million in 2003 to less than $700,000 as of June 2007. In
addition, FONZ reviews monthly inventory reports to ensure its best sellers are properly
stocked and slow selling items are marked down. FONZ also retains an outside consultant
to analyze inventory activity and provide advice on a quarterly basis.




                                             26
Recommendation 2. FONZ concurs. In March 2007, FONZ increased the retail markups
on a number of items and indicated that its COGS was consistent with the zoo peer
survey average. FONZ will continue to review its purchase costs as well as its markup
practices. To reduce purchase costs, FONZ has initiated contact with SBV and set a target
date of December 31, 2007, to explore joint purchasing opportunities.

Recommendation 3. FONZ concurs. FONZ’s Executive Director agrees that retail carts,
tents, and other temporary structures are important to supplement FONZ’s limited store
space. FONZ’s gift shops have expanded the use of mobile carts around the Zoo, and sales
from temporary outlets were almost 12 percent of total in-park revenues in 2006. FONZ
will continue to use these sales outlets to the extent practicable given limitations on
electricity and network connectivity as well as pedestrian traffic flows and park aesthetics.
Further, FONZ and the Zoo are planning for an expanded retail presence on Asia Trail II.

Recommendation 4. FONZ concurs. FONZ held discussions with its retail consultant and
discussed staffing levels with two other zoos. FONZ concluded that staffing structures
vary considerably among zoos and that a strict comparison of staffing numbers is difficult.
Based on FONZ’s unique operations, i.e., the distance between shops, warehouses, and
offices at the Zoo, the fact that merchandise management and staff routinely assist other
zoo departments and support special events, and FONZ’s significant on-line and seasonal
mall store presence, FONZ believes that its permanent staff structure is balanced and
appropriate.

Recommendation 5. FONZ and the Zoo concur. According to the Executive Director,
FONZ’s Board of Directors sets aggressive financial targets in the annual budget process
for revenue and net contributions. For 2007, FONZ’s budget assumed only a 6 percent
drop in concessions revenue from 2006 despite its forecast of an 11 percent drop in
visitation, reflecting recently implemented operating improvements. Regarding the
feasibility of outsourcing, FONZ’s Board recently re-examined its merchandise operations
and recommended against outsourcing.

Recommendation 6. FONZ concurs. FONZ recognizes the particularly difficult challenge
in its recruitment of concessions staff. In 2007, FONZ expanded recruitment efforts by
enhancing job fairs and developing an affinity program to connect the seasonal workforce
more closely to the Zoo itself. FONZ also offered incentives to existing workers to recruit
friends and colleagues, attended university job fairs, and partnered with community
organizations. FONZ will continue to seek ways to provide its guests with a wider variety
of food items at the smaller locations, including the use of third-party concessionaires.

Recommendation 7. FONZ concurs. FONZ has expanded its use of third-party
concessionaires for supplemental food services. In 2007, FONZ negotiated two seasonal
contracts covering five different locations around the Zoo and awarded four short-term
contracts with local restaurants during the peak spring period to help with service and
variety. Through third-party concessionaires, FONZ provided Zoo guests with more food
outlets and a greater variety of food and beverage services, such as gelato, fresh-squeezed
lemonade, cotton candy, and gourmet coffee. FONZ will continue to evaluate the
effectiveness of short-term versus long-term durations of these contracts.
                                             27
Recommendation 8. FONZ and the Zoo concur. FONZ contracted with an outside firm
that specializes in customer service to assist FONZ in changing its culture to one that
stresses exemplary customer service. In April 2007, FONZ directors and key employees
participated in an interactive workshop to intensify their focus on customer service
training and performance. FONZ developed a customer service theme, standards, and
behaviors that will be used to establish a customer service training program for all
employees. FONZ expects to complete the development of the training program by
September 30, 2007, and a newly formed strategic committee of FONZ’s Board will
provide oversight of improvements in customer service.

Recommendation 9. FONZ partially concurs and the Zoo concurs. FONZ asserted that it
follows up and resolves all customer complaints it receives and indicated that it would be
a significant administrative burden to establish a formal process for tracking all visitor
correspondence including emails, comments cards, and letters. FONZ has agreed to
monitor customer feedback primarily through two vehicles: secret shopper reports and a
new visitor survey. FONZ indicated that scientific surveys of visitor satisfaction with
sound statistical analysis of the data are a far superior way of obtaining customer feedback
and identifying both problems and areas of excellence. FONZ has been working closely
with the Smithsonian Office of Policy and Analysis to design and implement a series of
standardized visitor surveys to establish baseline levels of visitor satisfaction with
customer service and monitor them over time, conducting surveys two to three times a
year.

Recommendation 10. FONZ and the Zoo concur. Both are committed to developing a
strategy for implementing employee parking fees in the future as part of the ongoing
feasibility study (economic analysis by the parking task force) for a parking garage at the
Zoo. The Zoo Deputy Director noted three large events that are scheduled for 2008 –
preparations for Association of Zoos and Aquariums (AZA) accreditation,
implementation of the new Zoological Information Management System, and FONZ’s
50th Anniversary – that will substantially increase employee workloads. The Zoo and
FONZ are concerned that announcing plans now to implement paid parking for
employees would reduce productivity at a critical time. In addition, because
implementing paid parking would be considered a change in working conditions, the
American Federation of Government Employees union will need to be involved, and these
matters usually take considerable time to resolve. The Zoo and FONZ have committed to
work with the Smithsonian’s Secretary to reevaluate the parking policy for FONZ and Zoo
employees and develop a strategy for implementing employee parking fees by
December 31, 2009.

Recommendation 11. FONZ concurs. Zoo officials defer to the FONZ Board. The FONZ
Board examined membership rates and benefits, including free parking, in early 2006. The
Board increased dues for selected membership levels in 2006 and is not inclined to pursue
such a re-examination now because the new membership rates are just completing the
first cycle. As with recommendation 10, FONZ’s Board will reconsider member parking
benefits by December 31, 2009, as part of the parking garage feasibility study.



                                            28
Recommendation 12. FONZ concurs. While FONZ agrees that a more systematic
approach to developing and recording operating policies may be in order, its limited
resources mean that other, higher priorities need be addressed first. Nevertheless, by
December 31, 2008, the FONZ Board will work with the Executive Director to prioritize
the areas for which written policies and procedures should be developed. FONZ will
develop and approve policies and procedures for these areas by December 31, 2010, and
the Board will provide oversight to ensure implementation.

Recommendation 13. FONZ concurs. FONZ believes that it has implemented a proper
segregation of duties and appropriate access controls considering the small size of its
organization. FONZ hired a new Controller, who established a process for supervisory
review and approval of all journal entries and bank reconciliations. FONZ also noted that
its outside auditors did not find any weaknesses in FONZ’s control environment in fiscal
year 2006.

Recommendation 14. FONZ concurs. By December 31, 2008, the Board, working with
the Executive Director, will determine the areas for which risk assessments should be
developed. FONZ will complete the risk assessments and report to the Board on its system
of mitigating controls by December 31, 2010. The Board will provide oversight to ensure
that mitigating controls are implemented.

Recommendation 15. FONZ does not concur. The Board believes that it has exercised
appropriate oversight of FONZ’s investment policies.

Recommendation 16. The Zoo Director and FONZ concur. The Zoo stated that revenue-
generating opportunities and transportation alternatives have been an integral part of the
master planning process and indicated that the design team used external consultants to
focus on these areas in the development of the master plan document. OFEO also agreed
that the master planning team should fully integrate revenue operations into the master
plan design from the outset. The draft master plan, recently issued for public comment,
includes options that best fit animal care, staff, and visitor amenities. The final master
plan will also reflect input from top Smithsonian officials as well as the Board of Regents.
Officials acknowledged that implementation of the master plan will be a multi-year
process and that specific details for revenue-generating opportunities will require a
business plan to determine the capital costs and how they can be recovered, as is currently
being done for the proposed multilevel parking garage.

We include the full text of management’s response as Appendix C.




                                            29
Office of the Inspector General Comments

During our audit, the FONZ Board named a new Executive Director to oversee FONZ’s
operations. In addition, FONZ management, working closely with the FONZ Board,
adopted a new strategic plan to improve the visitor experience, enhance partnerships with
stakeholders, and achieve organizational excellence. We briefed FONZ and Zoo officials
on our findings during the audit and observed that the new Executive Director has made
many improvements in FONZ’s revenue operations over the past year. For example, we
have seen a marked improvement in overall store presentation and tidiness, staff
friendliness towards visitors, and an increase in the availability of food services.

Comments on Responses to Specific Recommendations
Management’s actions taken and planned respond to the intent of our recommendations
and we consider them resolved. For recommendations 1, 3, 4, 6, 7, and 13, management
has substantially completed the actions to improve FONZ’s revenue operations, and we
consider these recommendations closed. Regarding recommendation 15, FONZ’s Finance
and Audit Committee recently briefed the FONZ Board regarding the status of its
investments and is reevaluating FONZ’s investment strategy. Based on information
provided to us on the Board’s oversight of investments, we consider this recommendation
closed as well. However, on the issue of keeping minutes for committee meetings, we note
that the June 2007 Report of the Governance Committee to the Board of Regents directed the
Institution to enhance the transparency of the Board of Regents’ operations and
deliberations by directing it and its committees to keep minutes for all meetings,
including executive sessions. We urge FONZ’s Board to adopt this best practice and keep
minutes of all Board and committee meetings.

To fully address recommendations 10 and 11 regarding the free parking policy for Zoo
and FONZ employees as well as FONZ members will require vetting by the Secretary and
Board of Regents. Also, while FONZ concurred with recommendation 12, in subsequent
discussions FONZ indicated that formal written purchasing policies and procedures were
not necessary for the food and merchandise departments because these were very thinly
staffed offices. In our view, it is especially important to document policies and procedures
for these departments because merchandise and food services are FONZ’s two largest
revenue-producing operations and because such documentation promotes transparency
and assists succession planning.

Management stated they have taken actions that satisfy recommendations 5, 9, and 16,
and that these recommendations should be closed. We do not agree.

In recommendation 5, we suggested that FONZ establish aggressive financial targets for
revenue and net contribution growth and explore all options, including the feasibility of
outsourcing merchandise operations, for achieving these targets. According to FONZ, its
Board does set aggressive financial targets and cites the approved 2007 budget as an
example. However, FONZ provided little detail on how it set this goal or why. Moreover,
if they are expecting an 11 percent decline in visitation, we fail to understand how a goal
of a 14.5 percent decline in net contribution is an aggressive target.

                                             30
As for the outsourcing part of our recommendation, we understand that the FONZ Board
recently re-examined this issue and recommended against it. In response to our requests
for the details of the Board’s analysis, FONZ provided us letters from the Zoo Director
and the FONZ Executive Director to the Acting Secretary, which conclude that because
FONZ is generating significant operating profits and its retail operations personnel are
embedded in other operational activities, the Zoo would have to hire replacement
employees for some Zoo services such as education programs, visitor services and the
Zoo’s website. FONZ did not provide any trend analyses of detailed metrics such as sales
per visitor, visitor capture rates, and expense per dollar of sales. Since the Finance and
Audit Committee did not retain minutes of its meetings and the full Board minutes were
at a summary level, it could not provide us with any details on its deliberations.

To its credit, FONZ has drafted an operational plan for the 2007 to 2010 period that
contains steps for enhancing its customer service program, improving merchandise and
food services, and increasing membership. However, the version provided to us did not
include developing a longer-term financial plan that is tied to its operational plan and
future annual budgets so the Board can better measure financial progress and make a
more informed decision on the outsourcing issue.

We will keep this recommendation open until FONZ can provide more detailed
information on its financial targets. We request that by February 28, 2008, FONZ provide
us with its approved 2008 budget along with information on the key metrics that it used
to measure financial performance and how the metrics are linked to aggressive targets in
its budget as well as the longer term.

On recommendation 9, we applaud management for working with the Office of Policy
and Analysis to develop a more scientific visitor survey to establish a baseline to gauge
trends in customer service. These surveys and secret shopper reports should provide
management with excellent information to implement improvements where needed.
However, we do not plan to close this recommendation until the 2007 surveys and secret
shopper reports are completed and analyzed. Moreover, we want to observe how well
FONZ documents its follow-up efforts to resolve visitor complaints and other customer
service issues raised in the surveys. We have established a target date of January 31, 2008.

Regarding recommendation 16 on the master plan, by the time the plan is finalized and
approved (by June 2008), FONZ and the Zoo will have fully considered the expansion of
retail facilities, special events facilities, parking alternatives, and amusements and
entertainment amenities. We understand that the Zoo would like this recommendation
closed, but we will keep it open until the master plan has been finalized. We expect the
Zoo and FONZ to weigh all options and document their decision-making.

We recognize the difficult challenge in balancing the Zoo Director’s resolve to expand the
footprint for animal exhibits with the need to maximize revenues from concessions and
other visitor amenities. It is critical to consider the costs of sustaining the new animal
exhibit areas along with the need to self-fund operations to the maximum extent, given
federal budget constraints. The Zoo currently suffers from lost revenue opportunities and
diminished visitor amenities because of prior decisions to expand exhibit space at the
                                             31
expense of up-front planning for visitor services. We plan to keep this recommendation
open until the Secretary and Board of Regents review this matter and the final master plan
receives the required approvals (projected for June 2008). We expect that the Zoo, OFEO,
and FONZ will weigh the benefits and costs for all options and document their analyses.

Comments on Responses Regarding General Issues
Finally, we would like to address FONZ’s two biggest concerns: our survey methodology
and the age of our data.

FONZ’s chief concern with our methodology for comparing FONZ with other zoos is that
our analysis did not factor in significant differences among zoos, such as size of usable
property for concessions, zoo philosophies regarding amenities, and cost allocations.
Because these complex factors could not be addressed, FONZ maintains that
we did not provide true apple-to-apple comparisons in the report. Consequently, FONZ
believes that comparisons of net contributions with other zoos are invalid and that we
should not have made findings based on the comparisons.

While we found the comparative analysis helpful, our findings are based on multiple
sources, not solely on the peer averages. These other sources included, in part, FONZ’s
retail consultant, consultants hired by the Institution to review retail services as well as to
assist in the development of the master plan, SBV retail experts, data from the Association
of Zoos and Aquariums, tours and discussions with seven other large zoos, and our own
observations. And while our comparative analysis used the peer zoo average as a
benchmark, we calculated peer averages based on approximately eight to ten respondents
(with only minor adjustments or exclusions), thereby attempting to mitigate differences
in accounting structures to the extent practicable.

FONZ was also concerned that our reliance on dated information means our report does
not reflect current conditions. We believe our report makes clear that at the time of our
verification work, the most recent annual financial data available from peer zoos and
FONZ was 2005. We included FONZ’s 2006 financial data throughout the report to better
reflect current conditions at the Zoo. We also believe our report presents a fair and
balanced assessment of actions taken by FONZ in the past year to improve operations as
well as the visitor experience.

FONZ also included references to inaccuracies in our draft report. After considerable
discussion and other communications, we either incorporated appropriate changes to the
report, or FONZ generally agreed that its comments were not applicable.




                                              32
APPENDIX A. SCOPE AND METHODOLOGY

Our audit primarily covered a three-year period, from 2003 through 2005, and we
selectively reviewed additional information over a seven-year period, from 2000 through
2006. We conducted our audit largely in the Washington, D.C. area from November 2005
to July 2007 in accordance with Generally Accepted Government Auditing Standards. We
also visited seven zoos in several East Coast and Midwestern states.1

Initially, we met with Zoo and FONZ officials to understand what financial data and
documents were being prepared, how they were being utilized, and what other data were
available. To ensure that FONZ’s data were reasonably accurate, usable, and compatible
with the Zoo’s reporting needs, we analyzed FONZ’s internal management reports and
financial statements. Later, we met with FONZ’s external auditors and different levels of
management to understand internal controls and their effect on the financial statements
and how departmental procedures affected operations. We reviewed the external auditors’
workpapers for fiscal years 2004 and 2005 and noted that unqualified opinions were given
for both years examined, as well as for 2006. We also obtained copies and reviewed
activities related to selected policies that controlled aspects of cash, food, and merchandise
operations. At the mid-point of our audit, we briefed FONZ and the Zoo on our interim
findings. We also met later with the Institution’s Office of Planning, Management, and
Budget and a contractor the Institution had hired to provide data for an analysis of
Smithsonian retail operations. Additionally, we reviewed other analyses and prepared
documents, as well as numerous consultant studies and surveys.
                                                                  2
We reviewed the prior OIG audit of the Zoo’s parking operations. That report had
identified weaknesses concerning internal controls over the collections, deposits, and
recording of parking operations revenues. To its credit, management has implemented
actions to correct these weaknesses.

To develop a framework for understanding FONZ’s profitability and operating efficiency,
we obtained data from zoos and other comparable organizations for three fiscal years
(2003 through 2005) to the extent available and performed trend analysis. We also
examined museum and zoo association data. To improve comparability of data, we
developed a survey to accumulate data from 32 U.S. zoos with the largest attendance
levels, FONZ, and SBV. We did not verify the accuracy of this data for purposes of our
analysis and we assumed that survey instructions were uniformly carried out by all
participants. We acknowledge that there are numerous differences affecting the
comparability of survey data such as regional differences, usable zoo acreage, and
management philosophies, as well as differences in accounting methods and allocations.
The survey primarily focused on merchandise and food and beverage operations, but we
also obtained data on other areas such as parking, attendance, and membership. Of the 32
zoos we surveyed, 18 provided us financial data and answered other operating questions.



1
  We visited the Cleveland Metroparks Zoo, Columbus Zoo and Aquarium, Lincoln Park Zoo, Philadelphia
2
  Zoo, Saint Louis Zoo, Toledo Zoo, and Zoo Atlanta.
  Parking Operations at the National Zoological Park, No. A-04-09 (December 27, 2004).
                                                A-1
Concurrent with our efforts to collect data by survey, we visited seven zoos and met with
financial, merchandise, and food managers; toured Zoo grounds for ideas and
information on additional revenue-generating activities and to better understand how zoo
concession operations were managed; and gathered additional documents to help make
our comparisons. For SBV, we spoke with the managers of concession operations and
obtained financial statements. However, SBV did not complete our survey and provided
only limited concession information. We met with the Chief Financial Officer and Chief
Operating Officer of SBV and reviewed the agreement between the Institution and FONZ
to determine whether both parties were meeting their responsibilities as laid out in the
agreement. We also toured the Zoo with SBV’s then-President of Retail Operations to
obtain his observations on store presentation as well as on merchandise pricing and
selection.

We developed criteria consisting of peer survey averages based on various operational
data and financial ratios to compare and evaluate FONZ’s revenue-generating activities.
In our analyses, we made allowances for differences in zoo and other entity-reported data
to improve comparisons to FONZ to the extent practicable. For example, we excluded
General & Administrative expenses because of vast differences in incurred expenses and
accounting treatment by survey respondents. Also, we obtained comparative third-party
concessionaires’ data.

To determine the extent to which the Zoo’s future plans included revenue-generating
operations, we held numerous discussions with OFEO, Zoo, and FONZ officials on the
Zoo’s ten-year master planning process. We also obtained and reviewed draft planning
documents and related consultant studies.

Finally, we noted that FONZ’s internal reports were not always consistent or easy to use,
and Zoo officials indicated that they were having difficulty comparing financial data from
one period to another. At the request of the Zoo’s Director, we reviewed FONZ’s internal
management reporting format. We also compared FONZ’s reports to reports obtained
from other zoos we visited. We discussed the various reports with FONZ and Zoo officials
and provided examples to them for their consideration and use.




                                           A-2
APPENDIX B. FINANCIAL MEASURES

This appendix presents various financial measures for FONZ and comparisons to other
zoos and Smithsonian Business Ventures. We define our terms and provide additional
notes at the end of the appendix.

We calculated the figures we present here for cost of sales, direct labor, and net
contribution as a percent of revenue.

Merchandise Comparisons to the Peer Survey Average


               Chart 1: FONZ's Revenue
   (as a Percent of the Peer Survey Average Revenue)
  250%

  200%                                                                 FONZ’s revenue from
                                                                       merchandise operations well
                                                                       exceeded peer survey averages and
  150%
                                                                       increased from 2003 to 2005. In
  100%                                                                 2003, FONZ’s revenue was
                                                                       approximately 70% higher than
                           Peer                                        the peer survey average and by
   50%                    Survey
                          Average
                                                                       2005, FONZ’s revenue had
                                                                       increased to 110% higher than the
    0%
                                                                       average.
                  2003                  2004               2005
 •Each year’s peer survey average revenue is shown at
  100% for comparative purposes.




                   Chart2:2: Cost
                  Chart      Cost ofofGoods
                                         Goods Sold
                                                 Sold
                   (as(as a Percent ofofRevenue)
                       a Percent         Revenue)
                                                                       FONZ’s cost of goods sold
 50%                                                                   (COGS) was higher than the peer
                  46.4%
                                                               44.5%   survey average, which equated to
                                            43.7%                      a lower net contribution than
          40.7%                                        40.7%           other zoos. This means that
                                    40.1%
                                                                       FONZ may have paid too much
 40%
                                                                       for the merchandise that it sells. A
                                                                       high COGS could also reflect a
                                                                       lower than average markup on the
                                                                       price charged to customers.
 30%                                                                   FONZ’s 2005 COGS was about
             2003                      2004                2005
                                                                       4 percentage points higher than
                                                                       the peer survey average.
                          Peer Survey Average       FONZ

                                                           B-1
                                                                      Merchandise Comparisons

         Chart 3:
        Chart    3: Direct
                    DirectLabor
                             LaborExpense
                                    Expense
          (as(asaaPercent
                    Percent ofof Revenue)
                              Revenue)
30%



25%                                                        Direct labor expense showed a
                                                           declining trend and almost closed
                                                   22.4%   the gap with the peer survey
20%                                                21.0%   average.


15%
      2003                2004                2005
             Peer Survey Average     FONZ




           Chart4:4:Net
         Chart       Net Contribution
                         Contribution
         (as a Percent of
             (as a Percent ofRevenue)
                              Revenue)
40%

                                                           While FONZ’s net contribution
35%
                                                           improved from 2003 to 2005, it
                                                           was considerably lower than the
30%                                                        peer survey average. FONZ’s
                                                           higher than average COGS (see
25%                                                        Chart 2) and direct labor expense
                                                           (see Chart 3) contributed to
20%                                                        FONZ’s lower than average net
                                                           contribution.
15%
      2003               2004               2005
               Peer Survey Average   FONZ




                                              B-2
                                                                          Merchandise Comparisons



              Chart
           Chart 5: 5:2005:
                       2005: Number
                             Number of Cash  Registers
                                       of Cash    Registers
                        per 100,000 Visitors
                       Per 100,000 Visitors                   Perhaps related to its lower than
    1.00                                                      average square footage, FONZ
                                                              also had a lower than average
    0.80                                                      number of cash registers per
                                                              100,000 visitors.
    0.60
                                                              •   2005 Peer Survey Average: 0.91
                                                              •   2005 FONZ: 0.77
    0.40
                                                              We note that FONZ has recently
    0.20                                                      added a cash register to the Panda
                                                              Gift Shop.

    0.00
             Peer Survey Average               FONZ

However, despite its small square footage, FONZ’s capture rate (total transactions divided
by total visitors) was similar to other zoos.

•      2005 Peer Survey Average: 12.6%
•      2005 FONZ: 12.8%

One area that has not been hampered by FONZ’s limited square footage is its online
merchandise sales (2005 online sales: $146,993). Based on our survey and zoo visits, most
other zoos have not developed a strong online store presence.




                                                      B-3
Food and Beverage Comparisons to Peer Survey Averages


                Chart
                 Chart 6:
                        6: FONZ's
                           FONZ’s Revenue
                                  Revenue
   (as
   (as aa Percent
          Percent of
                  of the
                     the Peer
                         Peer Survey
                              Survey Average
                                     Average Revenue)
                                             Revenue)
 120%
            Peer
           Survey
 100%                                                       FONZ’s Food & Beverage revenue
                                                            started out below the peer survey
  80%
                                                            average in 2003, but it increased
  60%                                                       to 6% above the average in 2005.
                                                            Food & Beverage brought in
  40%                                                       slightly less revenue ($3.8 million)
                                                            than merchandise ($4.2 million)
  20%
                                                            in 2005.
  0%
             2003                2004                2005
  •Each year’s peer survey average revenue is shown at
   100% for comparative purposes.




                  Chart7:7:Cost
                Chart       Cost ofofFood
                                      FoodSoldSold
                (as(as a Percent ofofRevenue)
                    a Percent         Revenue)
 35%
 30%                                                        FONZ’s cost of food sold was
                                                            consistently below the peer survey
 25%                                                        average from 2003 through 2005,
 20%                                                        signifying that FONZ paid less for
                                                            its food than other zoos, helping
 15%                                                        to increase net contribution.
 10%                                                        Alternatively, a low cost of food
                                                            sold could indicate that FONZ
  5%                                                        charged customers a higher
  0%                                                        markup than other zoos.
             2003                2004                2005
                         Peer Survey Average     FONZ




                                                     B-4
                                                                     Food and Beverage Comparisons


         Chart8:8:Direct
       Chart       Direct Labor
                          Labor  Expense
                                   Expense
         (as(as
             a Percent
                a Percent ofofRevenue)
                               Revenue)
30%

28%
                                                          From 2003 to 2004, FONZ’s
26%                                              26.0%    direct labor expenses were lower
                                                  25.5%   than the peer survey average,
24%                                                       positively affecting net
                                                          contribution. In 2005, FONZ’s
22%                                                       expenses approximated the peer
                                                          survey average.
20%
      2003                 2004                2005
                Peer Survey Average      FONZ




              Chart 9:
             Chart   9: Net
                        NetContribution
                               Contribution
             (as(as
                 a Percent
                    a Percent of of Revenue)
                                 Revenue)
45%

                                                          FONZ’s net contribution was
                                                          higher than the peer survey
40%                                                       average because its cost of food
                                                          sold (see Chart 7), and direct
                                                          labor expenses (in 2003 and 2004)
                                                          were lower than the average (see
                                                          Chart 8).
35%
      2003                  2004               2005
                 Peer Survey Average    FONZ




                                                B-5
                                                                                           Food and Beverage Comparisons



                               Chart 10: Capture Rate
                            Chart  10: Capture      Rate
                                                                               FONZ’s Food & Beverage capture
                             (Transactions per Visitor)                        rate (total transactions divided by
45%                                                                            total visitors) appeared low
                                                                               compared to four other zoos who
40%
                                                                               provided data in our survey. This
35%                                                                            may be an indication of FONZ’s
                                                                               limited service ability, such as
30%                                                                            FONZ’s lower than average
25%                                                                            number of cash registers per
                                                                               visitor. In 2005, FONZ had 1.43
20%                                                                            cash registers per 100,000 visitors,
                                                                               while the peer survey average was
15%                                                                            1.86 (a 30% difference). However,
                 2003                       2004                 2005          FONZ has recently increased the
                                                                               availability of food service cash
      Peer Survey Average        Peer Survey Low   Peer Survey High     FONZ
                                                                               registers.




                                                                 B-6
Merchandise Comparisons to Smithsonian Business Ventures (SBV)

                                   Chart
                                    Chart11:11:
                                             FONZ  Merchandise
                                                FONZ           Revenue
                                                     Merchandise   Revenue
        $8,000,000
        $6,000,000
        $4,000,000
        $2,000,000
                $0
                          2001             2002             2003              2004                2005


                                      Chart  12:SBV
                                      Chart 12:  SBV Merchandise
                                                    Merchandise     Revenue
                                                                Revenue
        $60,000,000
        $40,000,000
        $20,000,000
                 $0
                           2001            2002            2003              2004            2005


FONZ and SBV Comparisons and Trends:
                                                                              Chart 13:
                                                                                      13:Net
                                                                                          NetContribution
•   FONZ’s merchandise revenue is                                             Chart           Contribution
    approximately 1/10 the amount of                                           (as a Percentofof
                                                                                (as a Percent  Revenue)
                                                                                                 Revenue)
    SBV’s.                                                    35%

•   FONZ’s revenue and net contribution
    in 2005, with the debut of Tai Shan,                      25%
    was still not as high as it was in 2001,
    after the arrival of two new pandas
    and before the impact of the 9/11                         15%
    terrorist and D.C. sniper attacks.
•   SBV revenues have been increasing                         5%
    since 2003 but increases in net                                   2001           2002     2003          2004     2005
    contribution were not realized for
                                                                                            SBV          FONZ
    another year.
•   SBV’s net contribution declined between 2001 and 2003, and showed recovery in 2004
    and 2005.
•   Net contribution was higher for FONZ than for SBV from 2001 through 2005.
    However, by 2005, FONZ and SBV had similar net contribution percentages.

Note: FONZ operates on a calendar-year basis while SBV operates on a fiscal-year basis (October 1 – September 30).



                                                        B-7
                                                                          SBV Comparisons



               Chart 14: Cost of Goods Sold
                (as a Percent of Revenue)
55%


                                                              SBV’s COGS for merchandise
50%                                                           stores was consistently lower than
                                                              FONZ’s COGS. However,
                                                              FONZ’s COGS generally
                                                     44.5%
                                                              decreased over the years and was
45%                                                           only slightly higher than SBV’s in
                                                              2005.
                                                      43.6%
40%
      2001       2002         2003          2004     2005

                        SBV          FONZ




             Chart 15: Direct Labor Expense
               (as a Percent of Revenue)
30%                                                           This chart illustrates the effect
                                                              changes in revenue have on our
                                                              depiction of expenses. FONZ’s
25%
                                                              direct labor expenses initially
                                                              increased as revenues declined
20%                                                           but have since tapered off as
                                                              revenues rebounded.
15%
                                                              SBV has had a general decline in
                                                              its direct labor costs, except for an
10%                                                           increase experienced in 2005.
      2001       2002         2003          2004     2005
                        SBV          FONZ




                                                   B-8
                                                                                    SBV Comparisons




                Chart 16: Inventory Turnover
4.0
3.5
3.0                                                                      FONZ and SBV both improved
                                                                         their inventory turnover from
2.5                                                                      2004 to 2006. While FONZ’s 2005
2.0                                                                      turnover was just below SBV, by
1.5
                                                                         2006 FONZ had reversed the
                                                                         trend and improved to well above
1.0                                                                      SBV.
0.5
         2.8    2.5          2.9      2.7                 3.0 3.5
0.0
           2004                    2005                    2006
                             SBV FONZ




                Chart 17: Sales per Square Foot
$1,400

$1,200
                                                                         FONZ had higher sales per square
$1,000                                                                   foot than SBV from 2001 through
                                                                         2005.
 $800

 $600

 $400
         2001         2002          2003           2004           2005
                              SBV           FONZ




                                                            B-9
Key to financial measures

   •     Revenue: total merchandise or food and beverage sales (less discounts)

   •     Expenses (3 categories)*:

            o Cost of Goods Sold (COGS) or Cost of Food Sold: cost of merchandise or
              food and beverage (including paper products) that was sold
            o Direct Labor Expense: salaries and benefits for management and staff
            o Other Direct Expenses: other expenses directly related to the operation,
              such as supplies, shipping, telephone, and the like.

   •     Net Contribution: Revenue less all Expenses listed above

*Excludes General & Administrative expenses.

Notes:

See Appendix A: Scope and Methodology for additional details regarding financial
measures comparisons.

We did not verify the data provided for our analysis. We relied solely on the statements
and data provided by respondents. We also made certain adjustments to the data to
improve comparability. We computed peer survey averages based on our survey of 32
large zoos, with 18 respondents. The averages only include those zoos that operate their
own concessions, approximately ten for merchandise and eight for food service.

While we factored other direct expenses into the calculation for net contribution, we did
not fully analyze them because zoo expense structures and allocation methods vary
considerably.




                                           B-10
APPENDIX C. MANAGEMENT RESPONSES




                         C-1
C-2
C-3
C-4
C-5
C-6
C-7
C-8
C-9
C-10
C-11
C-12
C-13
C-14
C-15
C-16
APPENDIX C. MANAGEMENT RESPONSES (CONTINUED)




                         C-17
C-18
C-19
C-20
C-21
C-22
C-23
C-24
C-25
APPENDIX D. CONTRIBUTORS TO THE REPORT

The following individuals from the Smithsonian Office of the Inspector General contributed to
this report:

Stuart A. Metzger, Assistant Inspector General for Audits
Joan T. Mockeridge, Supervisory Auditor
Douglas Kodish, Senior Auditor
Mary Stevens, Auditor




                                            D-1
